Report No. D-2008-044          January 31, 2008




  Adequacy of Procedures for Reconciling Fund
     Balance with Treasury at the National
        Geospatial-Intelligence Agency
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
CMR                   Cash Management Report
DFAS                  Defense Finance and Accounting Service
DoD IG                DoD Inspector General
FBWT                  Fund Balance with Treasury
O&M                   Operation and Maintenance
PDW                   Procurement, Defense-Wide
RDT&E                 Research, Development, Test, and Evaluation
TBO                   Transactions-by-Others
                             INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704



                                                                           January 31, 2008


MEMORANDUM FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
              DIRECTOR, NATIONAL GEOSPATIAL-INTELLIGENCE
                 AGENCY

SUBJECT: Report on Adequacy of Procedures for Reconciling Fund Balance with Treasury
         at the National Geospatial-Intelligence Agency
         (Report No. D-2008-044)


     We are providing this report for information and use. We considered management
comments on a draft ofthis report in preparing the final report.

        Comments on the draft ofthis report conformed to the requirements of DoD
Directive 7650.3 and left no unresolved issues. Therefore, no additional comments are
required.

       We appreciate the comtesies extended to the staff. Questions should be directed to
Mr. Marvin L. Peek at (703) 601-5948 (DSN 329-5948) or Ms. Jennifer R. Siwula at
(703) 601-5914 (DSN 329-5914). The team members are listed inside the back cover. See
Appendix B for the report distribution.

                                 By direction of the Deputy Inspector General for Auditing:



                                       f~               a, mcwJv
                                        Patricia A. Marsh, CPA
                                Assistant Inspector General and Director
                                  Defense Financial Auditing Service
                Department of Defense Office of Inspector General
Report No. D-2008-044                                                  January 31, 2008
   (Project No. D2007-D000FA-0093.000)

Adequacy of Procedures for Reconciling Fund Balance with Treasury
             at the National Geospatial-Intelligence Agency

                                 Executive Summary

Who Should Read This Report and Why? National Geospatial-Intelligence Agency
(NGA) and Defense Finance and Accounting Service accounting personnel responsible for
the accounting, reporting, and reconciling processes that affect transactions posted to the
NGA Fund Balance with Treasury (FBWT) general ledger account should read this report.
This report identifies accounting, reporting, and reconciling process deficiencies and
discusses improvements needed to strengthen controls over the FBWT reconciliation
process.

Background. FBWT is an asset account that reflects the available budgetary spending
authority of a Federal agency. The reconciliation of the FBWT account is a key internal
control process. The U.S. Treasury requires that agencies reconcile their FBWT accounts
on a regular basis to ensure the integrity and accuracy of financial report data. Agencies
are required to explain any discrepancies between the FBWT in their general ledger
accounts and their FBWT balance in the U.S. Treasury accounts. The reported FY 2006
NGA FBWT represented 84 percent of its total assets on the balance sheet.

NGA is a member of the DoD financial reporting entity known as “Other Defense
Organizations.” The Defense Finance and Accounting Service Indianapolis uses a series
of codes to track disbursement and collection transactions posted to the U.S. Treasury
accounts by the various disbursing offices supporting the Other Defense Organizations.
For each month, the Defense Finance and Accounting Service Indianapolis summarizes
the Other Defense Organizations disbursement and collection transactions on the Cash
Management Report. A separate document known as the Detail Pile Report identifies the
detail transactions supporting the summary-level data that is on the Cash Management
Report. NGA reconciles its FBWT general ledger accounts using the Cash Management
and Detail Pile Reports.

Results. During FY 2007, NGA hired additional personnel to assist with the FBWT
reconciliation process. However, NGA continues to experience difficulties reconciling all
transactions posted to the FBWT general ledger account. These difficulties persist largely
because of deficiencies throughout the accounting, reporting, and reconciling processes.
Specifically, the Defense Finance and Accounting Service:

   •   had not established adequate procedures to identify and record in-transit
       disbursement and collection transactions; and

   •   could not provide complete information, including disbursement voucher numbers,
       for transactions included on the Cash Management Report and Detail Pile Report.
NGA used a manual process to perform its FBWT reconciliation. This prevented
accounting personnel from thoroughly reviewing and fully reconciling all transactions
posted to the FBWT general ledger account. In order to improve the reconciliation
process, the Defense Finance and Accounting Service should assist NGA in developing
procedures to ensure that disbursement and collection transactions can be effectively and
efficiently identified through all phases of processing, and provide more detailed
information supporting summary amounts reported on the Cash Management Report. In
addition, NGA should disclose any material unsupported amounts included in its FBWT
account in the footnotes to its financial statements. Ineffective FBWT reconciliation
procedures compromise the integrity of the FBWT reported on the NGA financial
statements and increase the risk that material errors will not be detected.

Management Comments and Audit Response. The Director, Defense Finance and
Accounting Service Omaha concurred with the recommendation and stated that the
Defense Finance and Accounting Service Omaha is now providing monthly reports to
NGA that show original disbursement voucher numbers.

The Director, Defense Finance and Accounting Service Indianapolis concurred with the
recommendation and agreed to perform the recommended actions to assist in the
reconciliation of the NGA FBWT general ledger account.

The Director, NGA partially concurred with the recommendation to disclose unsupported
amounts included in FBWT in the footnotes to the financial statement. He stated that
NGA will disclose only the material undistributed adjustments on its future financial
statements. He also stated that NGA is unable to disclose the amount of its unsupported,
undistributed adjustments because the detail reconciliations are performed after the
undistributed adjustments are posted to the accounting records. We consider his
comments responsive to the intent of our recommendation and agree that delays in
receiving the supporting documentation prevent NGA staff from fully reconciling the
FBWT general ledger account before they post the undistributed disbursements to the
general ledger. However, we expect NGA to disclose in the footnotes to the financial
statements that the undistributed adjustment is not based completely on detailed
reconciliations and, therefore, is partially unsupported. See the Finding section of the
report for a discussion of management comments and the Management Comments section
of the report for the complete text of the comments.




                                            ii
Table of Contents


Executive Summary                                     i

Background                                            1

Objectives                                            3

Review of Internal Controls                           3

Finding
     Reconciling Fund Balance with Treasury at NGA   4

Appendixes
     A. Scope and Methodology                        13
        Prior Coverage                               14
     B. Report Distribution                          15

Management Comments
     National Geospatial-Intelligence Agency         17
     Defense Finance and Accounting Service          20
Background


    National Geospatial-Intelligence Agency. The National Geospatial-Intelligence
    Agency (NGA) mission is to provide timely, relevant, and accurate geospatial
    intelligence in support of national security. NGA is a member of the U.S.
    Intelligence Community and a DoD combat support agency. Established in 1996
    and headquartered in Bethesda, Maryland, NGA operates major facilities in the
    Washington, D.C. and St. Louis, Missouri areas, as well as support and liaison
    offices worldwide.

    Fund Balance with Treasury. Fund Balance with Treasury (FBWT) is an asset
    account that reflects the available budgetary spending authority of a Federal
    agency. At the agency level, FBWT is an accumulation of the transactions
    recorded in the U.S. Government Standard General Ledger Account 1010, “Fund
    Balance with Treasury,” and any related subaccounts. The following are typical
    transactions that affect an agency’s FBWT general ledger account:

       •   Appropriations increase FBWT and are the statutory authority to incur
           obligations and to make payments out of the U.S. Treasury. They are
           subject to limitations that restrict the period of availability of the funds.

       •   Collections increase FBWT. There are three types of collections: receipts,
           reimbursements, and refunds.

       •   Disbursements reduce FBWT. Disbursements are payments to individuals
           or organizations for goods furnished or services rendered. They can also
           be made to transfer funds from one appropriation or fund to another.

    The FY 2006 NGA FBWT represents 84 percent of the total assets on the balance
    sheet. Consequently, adequate internal controls over the FBWT general ledger
    account, including reconciliation processes, must be implemented if NGA is to
    produce reliable financial statements.

    FBWT Reconciliation Requirements. The reconciliation of the FBWT account
    is a key internal control process. The U.S. Treasury requires that agencies
    reconcile their FBWT accounts on a regular basis to ensure the integrity and
    accuracy of financial report data. Agencies are required to explain any
    discrepancies between the FBWT in their general ledger accounts and the
    corresponding balance in the U.S. Treasury's accounts. However, agencies are
    not permitted to arbitrarily adjust their FBWT accounts. When resolving
    differences, agencies should maintain detailed reconciliation worksheets that, if
    needed, can be reviewed by agency management, internal and external auditors,
    or the U.S. Treasury.




                                          1
       Other Defense Organizations. NGA is a member of the DoD financial reporting
       entity known as the Other Defense Organizations 1 (ODO). Therefore, NGA
       shares a U.S. Treasury symbol with the other organizations comprising ODO. As
       a result, NGA fund balances in the U.S. Treasury accounts are indistinguishable
       from the fund balances of other ODO organizations. The Defense Finance and
       Accounting Service (DFAS) Indianapolis uses a series of codes to track
       disbursement and collection transactions posted to the U.S. Treasury accounts by
       the various disbursing offices supporting the ODO organizations. For each
       month, DFAS Indianapolis summarizes ODO disbursement and collection
       transactions on a document known as the Cash Management Report (CMR). The
       ODO organizations, including NGA, reconcile their FBWT general ledger
       accounts with balances reported on the CMR.

       Undistributed Disbursements and Collections. DoD Regulation 7000.14-R,
       “Financial Management Regulation,” volume 6B, chapter 10, defines
       undistributed disbursements and collections as the difference between
       transactions reported in the accounting records and transactions reported by the
       U.S. Treasury. The regulation requires agencies to explain any discrepancies
       between FBWT in their general ledger accounts and the corresponding balance in
       the U.S. Treasury's accounts.

       In-Transit Disbursements. In-transit disbursements are disbursements that have
       been reported by a disbursing office, through a disbursing center, to the
       U.S. Treasury and charged against the Department’s fund balance, but have not
       been received or processed by the applicable accounting office. There are two
       types of in-transit disbursements:

           •    Within-Center Disbursements. A within-center disbursement is created
                when a disbursing office makes a payment on behalf of an accounting
                office that reports to the same DFAS center as the disbursing office, but
                the accounting office and the disbursing office do not share the same
                database. An example of a within-center disbursement is when the DFAS
                Dayton disbursing office disburses on behalf of a DFAS Omaha
                accounting office. Both locations report to the DFAS Denver Center;
                however, they do not share the same database.

           •    Cross-Disbursements. A cross-disbursement is created when a disbursing
                office makes a payment on behalf of an accounting office that reports to a
                different DFAS center than the center to which the disbursing office
                reports. An example of a cross-disbursement is when a DFAS Cleveland
                disbursing office makes a disbursement for a DFAS Denver accounting
                office. Cross-disbursements are also created when a non-DoD Federal
                agency, such as the Department of State, makes a payment charged to a
                DoD account.



1
 The financial reporting entity, Other Defense Organizations, represents a consolidation of financial
information from the Defense organizations and funds that use the Treasury Index 97 account. The
financial information for the Other Defense Organizations is reported on a consolidating balance sheet
that is part of the DoD Agency-Wide Financial Statements.

                                                   2
     Roles and Responsibilities. DFAS, operating under the control and direction of
     the Under Secretary of Defense (Comptroller)/Chief Financial Officer, is
     responsible for processing financial and budgetary information from DoD
     organizations, including NGA, into accounting systems. DFAS accounting
     personnel in Omaha, Nebraska are responsible for processing and posting NGA
     disbursements. NGA accounting personnel are responsible for reconciling the
     FBWT general ledger account; posting undistributed disbursements and
     collections to the general ledger; and researching unreconciled amounts.


Objectives
     Our overall audit objective was to evaluate the effectiveness of the policies and
     procedures for reconciling the NGA FBWT to information available at DFAS and
     the Department of the Treasury. We determined how the reconciliation
     procedures affected the accuracy and reliability of amounts reported on the NGA
     financial statements. See Appendix A for a discussion of scope and methodology
     and for prior coverage related to the objectives.


Review of Internal Controls
     We identified an internal control weakness over the reconciliation of the NGA
     FBWT general ledger account. DoD Instruction 5010.40, “Managers’ Internal
     Control (MIC) Program Procedures,” January 4, 2006, defines a material
     weakness in internal controls over financial reporting as a reportable condition, or
     combination of reportable conditions, that results in more than a remote
     likelihood that a material misstatement of the financial statements, or other
     significant financial reports, will not be prevented or detected. We believe that
     deficiencies in the accounting, reporting, and reconciling processes for the NGA
     FBWT general ledger account are a material internal control weakness.




                                          3
           Reconciling Fund Balance with Treasury
           at NGA
           During FY 2007, NGA hired additional personnel to assist with the FBWT
           reconciliation process. However, NGA continued to experience
           difficulties reconciling all transactions posted to the FBWT general ledger
           account. These difficulties persisted largely because of deficiencies
           throughout the accounting, reporting, and reconciling processes.
           Specifically, DFAS:

              •     had not established adequate procedures to identify and record
                    in-transit disbursement and collection transactions; and

              •     had not provided complete information, including disbursement
                    voucher numbers, for transactions included on the Cash
                    Management Report (CMR) and Detail Pile Report.

           In addition, NGA used a manual FBWT reconciliation process. This
           prevented accounting personnel from thoroughly reviewing and fully
           reconciling all transactions posted to the FBWT general ledger account.
           NGA needed to make additional footnote disclosures to ensure that the
           financial statements accurately describe the status of the FBWT general
           ledger account. Ineffective FBWT reconciliation procedures
           compromised the integrity of FBWT reported on the NGA financial
           statements and increased the risk that material errors would not be
           detected.

FBWT Processes
    DoD and U.S. State Department disbursing offices worldwide process
    disbursement and collection transactions on behalf of NGA. The following
    summaries describe the accounting, reporting, and reconciling processes for NGA
    disbursement and collection transactions.

       •   Accounting. Disbursing offices report NGA disbursement and collection
           transactions through disbursing and accounting centers. The disbursing
           center is determined by which disbursing office processes the
           disbursement or collection transaction. DFAS Denver is the accounting
           center for DFAS Omaha. After DFAS Denver reports the disbursement
           and collection transactions to DFAS Omaha, DFAS Omaha accounting
           personnel record the transactions in the NGA accounting records.

       •   Reporting. In addition to reporting the disbursement and collection
           transactions to the appropriate disbursing center, the disbursing offices
           also report the transactions to DFAS Indianapolis. DFAS Indianapolis
           then summarizes the disbursement and collection transactions reported by
           the disbursing offices on the CMR. The CMR provides a summary of
           disbursement and collection data for each basic symbol and fiscal year

                                        4
                           combination. One month after DFAS Indianapolis initially prepares the
                           CMR, it compiles a separate document known as the Detail Pile Report
                           that contains the transactions 2 supporting the summary-level data on the
                           CMR. A timing difference occurs because DFAS Indianapolis is unable
                           to process all detail transactions before the CMR is generated.

                     •     Reconciling. On a monthly basis, NGA accounting personnel calculate
                           the total dollar value of undistributed disbursement and collection
                           transactions by comparing the total disbursements and collections reported
                           on the CMR to the disbursements and collections recorded in the NGA
                           accounting records. NGA accounting personnel then prepare a journal
                           voucher to post the undistributed disbursement and collection transactions
                           to the accounting records. When the Detail Pile Report is available, NGA
                           accounting personnel compare the transactions recorded in the accounting
                           records to transactions reported on the Detail Pile Report to perform a
                           transaction-level reconciliation of the undistributed amounts.

                  The following flow chart illustrates the accounting, reporting, and reconciling
                  processes for the NGA FBWT general ledger account.

                         Figure 1. NGA FBWT Accounting, Reporting and Reconciling Processes
    Accounting




                                                                                        NGA
                                    Disbursing       DFAS-           DFAS-
                                                                                      Accounting
                                     Center          Denver          Omaha
                                                                                       Records
    Reporting




                     Disbursing          DFAS                        Detail Pile
                                                         CMR
                       Office         Indianapolis                    Report
    Reconciling




                                                     Undistributed     Detailed
                                                      Calculation    Reconciliation

                                                                                                   Journal
                                                                                                   Voucher




2
The Detail Pile Report does not fully duplicate the detailed voucher-level transactions that are maintained
at the field accounting offices.



                                                           5
Process Deficiencies
     NGA accounting personnel were unable to fully reconcile all transactions posted
     to the FBWT general ledger account for the FY 2006 Operation and Maintenance
     (O&M); Procurement, Defense-Wide (PDW); and Research, Development, Test,
     and Evaluation (RDT&E) appropriations because of deficiencies throughout the
     accounting, reporting, and reconciling processes.

     Deficiencies in the Accounting Process
     DFAS has not established effective procedures to identify NGA in-transit
     disbursement and collection transactions. In addition, DFAS Omaha accounting
     personnel did not always maintain original disbursement voucher numbers when
     posting transactions to the NGA accounting records.

     Identifying In-transit Transactions. Throughout the accounting process,
     disbursement and collection transactions are considered “in-transit” until
     accounting personnel record the transactions in the accounting records. In-transit
     transactions cause amounts reported on the CMR to differ from amounts recorded
     in the accounting records. Therefore, in-transit disbursement and collection
     transactions directly affect the undistributed amounts calculated and reconciled by
     NGA accounting personnel.

     On a monthly basis, DFAS Omaha provides NGA with a listing of the in-transit
     transactions that have not been posted to the accounting records. Ideally, the
     in-transit listing should explain the majority of undistributed disbursement and
     collection transactions, thereby reducing the amount of time needed to reconcile
     the FBWT general ledger account. However, the NGA in-transit listings did not
     contain a complete and accurate record of all NGA in-transit disbursement and
     collection transactions. The listings were incomplete and inaccurate because
     DFAS Omaha accounting personnel responsible for producing the in-transit
     listings did not have access to complete information for some of the in-transit
     transactions in the accounting process. Although NGA accounting personnel
     have made significant progress in identifying other sources of information to
     compensate for the unreliable in-transit listings, the alternative procedures
     increased the amount of time needed to reconcile the FBWT general ledger
     account. We are making no recommendations related to the identification of in-
     transit transactions because DFAS Omaha is scheduled to stop providing
     accounting support to NGA in February 2008. See the Other Matters of Interest
     section of this audit report for additional information on the DFAS Omaha
     closure.

     Posting In-transit Transactions. DoD Regulation 7000.14-R, volume 5,
     chapter 11, “Disbursements,” requires that all disbursements be supported by
     formal disbursement vouchers. The regulation also requires that disbursement
     vouchers be assigned sequentially-issued identifying voucher numbers. The
     disbursement voucher numbers should remain the same throughout the disbursing
     process to ensure that transactions can be traced to originating documents.
     However, DFAS Omaha accounting personnel did not always use the original
     disbursement voucher numbers when posting transactions to the NGA accounting
     records.

                                          6
           DFAS Denver typically reports NGA in-transit disbursement and collection
           transactions to DFAS Omaha on a document known as a “Transactions-by-Others
           (TBO) register.” A system interface allows transactions on TBO registers to be
           automatically posted to the NGA accounting records. When disbursements are
           successfully processed through the system interface, the original disbursement
           voucher numbers are not posted to the NGA accounting records. Instead, the
           disbursements are recorded using a number that identifies the TBO register on
           which the transactions were reported. Recording transactions under the TBO
           register number allows Air Force accounting officials to confirm that all
           transactions on a TBO register have been posted to the accounting records. 3
           However, differences between the disbursement voucher numbers on the Detail
           Pile Report and the disbursement voucher numbers in the accounting records
           significantly increase the effort needed to reconcile the NGA FBWT general
           ledger account.

           In response to a discussion draft of this audit report, DFAS Omaha stated that the
           automatic system interface prevented them from maintaining original
           disbursement numbers when posting disbursements from TBO registers to the
           NGA accounting records. In addition, DFAS Omaha stated that NGA could
           obtain the original disbursement voucher numbers from the systems that
           processed the disbursements. However, NGA accounting personnel did not know
           how to obtain this information. DFAS Omaha should assist NGA in developing
           procedures to effectively and efficiently identify the original disbursement
           voucher numbers for all disbursements posted to the NGA accounting records.

           Deficiencies in the Reporting Process
           We confirmed that summary amounts reported on the NGA Detail Pile Report
           properly matched the summary amounts reported on the CMR. However, we
           were unable to confirm that the CMR and Detail Pile Report contained a complete
           record of all disbursing offices that process NGA disbursement and collection
           transactions. In addition, the Detail Pile Report did not always contain complete
           and accurate information on disbursement voucher numbers or sufficient
           information for NGA to reconcile disbursement and collection transactions
           reported by Air Force disbursing offices.

           Disbursing Offices. In order to obtain a complete list of the disbursing offices
           that supported NGA, we contacted personnel at DFAS Indianapolis, DFAS
           Denver, and NGA. The lists that we received from the two DFAS locations and
           NGA were very inconsistent. The three lists included a total of 47 disbursing
           offices, but only 10 disbursing offices were on all three lists. NGA accounting
           personnel stated that disbursing was not an NGA function and that they could
           only identify the disbursing offices that were reported on the CMR. DFAS
           personnel suggested that some disbursing offices may have been consolidated,
           while others could have closed entirely. In response to a discussion draft of this
           report, DFAS personnel stated that they could not identify all the disbursing
           offices that process NGA disbursement and collection transactions because the
           disbursing offices supporting NGA constantly change. Differences in the

3
    NGA uses Air Force accounting systems and processes; however, NGA is not included in the Air Force
    fund accountability process.



                                                    7
disbursing office listings do not necessarily indicate that the CMR and Detail Pile
Report were incomplete or inaccurate. However, the constant changes in
supporting disbursing offices would make it difficult for an independent public
accounting firm auditing the NGA financial statements to verify that all
disbursing offices processing NGA transactions were included on the NGA CMR
and Detail Pile Report.

Disbursement Voucher Numbers. The Detail Pile Report did not contain
complete and accurate disbursement voucher numbers for all disbursement and
collection transactions, as required by DoD Regulation 7000.14-R. As a result,
NGA reconciliation procedures were dependent upon other data elements, such as
basic symbols and dollar amounts, which were not always unique to a specific
transaction. Disbursement voucher numbers were incomplete and inaccurate
because DFAS Indianapolis did not implement system controls to prevent
disbursing offices from reporting NGA disbursement and collections transactions
without disbursement voucher numbers. DFAS Indianapolis accounting
personnel initially stated that system edit tables could be modified to make the
disbursement voucher number a mandatory reporting field. However, they
subsequently reported that the system change may not be cost effective. As an
interim solution, DFAS Indianapolis agreed to assist NGA accounting personnel
in identifying other detailed sources of information for disbursement voucher
numbers that NGA can use to reconcile the FBWT general ledger account.

Air Force-Processed Transactions. As shown in the table below, disbursement
transactions processed by the Air Force disbursing offices supporting NGA
represent 86 percent of the total disbursement transactions reported on the CMR
for FY 2006 funds (as of March 31, 2007).

     Table 1. Disbursements Processed by Air Force Disbursing Offices
                              ($ in millions)
                                  Amount                   Percent of Total
   Appropriation                 Disbursed                 Disbursements
   O&M                            $1101.4                        83%

   PDW                             $63.48                        81%

   RDT&E                           $405.5                        97%

        Total                    $1,570.2                        86%

The Detail Pile Report did not contain sufficient information for NGA accounting
personnel to reconcile disbursement and collection transactions reported by the
Air Force disbursing offices to the NGA accounting records. DFAS Indianapolis
accounting personnel initially stated that the Detail Pile Report did not contain a
listing of the transactions supporting the Air Force CMR totals because the Air
Force had not provided the information, and our attempts to obtain the
transactions from Air Force accounting officials were unsuccessful. When
notified of the difficulties we were experiencing, DFAS Indianapolis extracted
sufficient detail information from its systems to allow us to reconcile some of the
amounts reported on the CMR for Air Force disbursing offices to the NGA
                                     8
       accounting records. DFAS Indianapolis, in conjunction with DFAS Denver, 4
       should provide NGA accounting personnel with all available detail information
       supporting the summary amounts reported on the CMR for Air Force disbursing
       offices.

       Deficiencies in the Reconciling Process
       During FY 2007, NGA hired additional personnel to assist with the FBWT
       reconciliation process. However, the NGA manual FBWT reconciliation process
       prevented accounting personnel from thoroughly reviewing and fully reconciling
       all transactions posted to the FBWT general ledger account.

       Consistency of Reconciliations. The reconciliation of the NGA FBWT general
       ledger account is a labor-intensive, manual process that is very inefficient. NGA
       accounting personnel stated that prior to FY 2006, the FBWT general ledger
       account was not consistently reconciled because of other competing accounting
       requirements, such as the preparation of quarterly financial statements. During
       the second quarter of FY 2007, NGA hired two additional accountants who
       worked full-time on the reconciliation of the FBWT general ledger account.
       Although these additional personnel resources will not necessarily correct
       deficiencies related to the accounting and reporting processes discussed earlier in
       this report, they should allow NGA accounting personnel to perform more
       thorough reviews of the transactions posted to the accounting records.

       Transaction-Level Reconciliations. NGA accounting personnel documented the
       reconciliation of the FBWT general ledger account on reconciliation worksheets
       that were logically organized, appropriately labeled, and adequately cross-
       referenced to supporting documentation. However, NGA accounting personnel
       did not fully reconcile all transactions posted to the FBWT general ledger
       account. Instead, they performed transaction-level reconciliations for only the
       NGA undistributed disbursement and collection amounts.

       NGA accounting personnel calculated the undistributed disbursements and
       collections by comparing the total disbursement and collection transactions
       reported on the CMR to the disbursement and collection totals recorded in the
       NGA accounting records. They then performed transaction-level reconciliations
       for the differences. For example, if the CMR reported disbursements totaling
       $2 million, and DFAS Omaha recorded only $1.5 million in disbursements in the
       NGA accounting records, NGA undistributed disbursements would be
       $0.5 million. NGA accounting personnel would then use the Detail Pile Report
       and other documents to attempt to identify the transactions that comprised
       the $0.5 million in undistributed disbursements. NGA assumed that the
       remaining $1.5 million in disbursements were correctly posted to the accounting
       system.

       NGA accounting personnel were able to demonstrate that the FBWT general
       ledger account transactions for the FY 2006 PDW and RDT&E appropriations
       were properly accounted for, despite the lack of a complete reconciliation.
       However, they could not provide a similar confirmation for the high volume of
4
 DFAS Denver is the disbursing center for Air Force disbursing offices.



                                                   9
           transactions associated with the O&M appropriation. They acknowledged that
           transactions that are incorrectly posted or erroneously charged to NGA may go
           undetected. Neither we nor NGA anticipate that the additional personnel hired to
           assist with the FBWT reconciliation process would be able to perform a complete
           review of all disbursement and collection transactions posted to the accounting
           records. Ultimately, NGA will not be able to completely reconcile the FBWT
           general ledger account until disbursement and collection transactions can be
           effectively and efficiently traced through all phases of processing. DFAS
           implementation of the recommendations in this report should improve controls
           over all NGA FBWT processes.

           Financial Statement Disclosures. NGA accounting personnel prepared monthly
           journal vouchers to post undistributed disbursement and collection transactions to
           the FBWT general ledger account. We confirmed that amounts reported on the
           monthly journal vouchers were consistent with amounts shown on the FBWT
           reconciliation worksheets. However, NGA accounting personnel were unable to
           fully support the monthly journal vouchers until the corresponding Detail Pile
           Reports were published, which was a month after the journal vouchers were
           initially posted to the accounting records. We do not consider this timing
           difference to be a significant risk, because NGA accounting personnel
           consistently ensured that the journal vouchers were sufficiently supported in the
           following month. Although NGA accounting personnel properly disclosed that
           the adjustment was made, they did not disclose the amount of the adjustment or
           the percentage of the adjustment that was unsupported at the time the financial
           statements were prepared. For example, NGA accounting personnel posted a
           $17.2 million journal voucher to reduce the FBWT general ledger account for the
           March 2007 undistributed disbursements and collections. However, NGA
           accounting personnel were unable to fully support $0.4 million of the
           undistributed adjustment. 5 NGA accounting personnel should provide these
           additional disclosures to ensure that the financial statements accurately describe
           the status of the FBWT general ledger account.

Reliability of Reported FBWT
           Deficiencies in accounting, reporting, and reconciling processes prevented NGA
           accounting personnel from reconciling all disbursement and collection
           transactions posted to the FBWT general ledger account. Although NGA
           accounting personnel ensured that differences between the NGA accounting
           records and the CMR were adequately documented and generally supported, they
           were unable to thoroughly review transactions posted to the accounting records
           because existing systems did not provide the necessary data.

           Ineffective reconciliation procedures compromise the integrity of FBWT reported
           on the NGA financial statements and increase the risk, particularly for the O&M
           appropriation, that material errors will not be detected. A complete reconciliation
           is unlikely until disbursement and collection transactions can be effectively and

5
    The unsupported amount is based on an NGA accounting personnel analysis of the FBWT
    reconciliations. We did not confirm the accuracy of all amounts included in the analysis.

                                                      10
           efficiently traced through all phases of processing. Expedient implementation of
           the recommendations in this report should improve the processes affecting the
           FBWT general ledger account and move NGA closer to obtaining a favorable
           financial statement audit opinion.


Other Matters of Interest
           DFAS Omaha is scheduled to cease operations in February 2008 as part of the
           most recent Base Realignment and Closure. DFAS plans to transfer the NGA
           classified accounting function from DFAS Omaha to DFAS Indianapolis.
           However, the Director of National Intelligence recently issued an auditability plan
           that requires NGA to implement a new accounting system and abandon DFAS as
           a service provider, thereby making the future of NGA accounting operations,
           including the reconciliation of the FBWT general ledger account, highly
           uncertain. 6 NGA accounting officials are currently meeting with other members
           of the U.S. Intelligence Community to discuss the possibility of establishing a
           service-provider agreement with another Intelligence Community agency. We
           will continue to monitor NGA actions to implement the auditability plan set forth
           by the Director of National Intelligence.


Recommendations, Management Comments, and Audit
  Response
           1. We recommend that the Director, Defense Finance and Accounting
           Service Omaha assist NGA accounting personnel in developing procedures to
           effectively and efficiently identify the original disbursement voucher
           numbers for all disbursements posted to the NGA accounting records.

           Management Comments. The Director, DFAS Omaha concurred with the
           recommendation. He stated that DFAS Omaha now provides monthly reports
           which show original disbursement voucher numbers.

           Audit Response. The Director, DFAS Omaha comments were fully responsive
           to the recommendation.

           2. We recommend that the Director, Defense Finance and Accounting
           Service Indianapolis:

                  a. Assist NGA accounting personnel in identifying other detailed
           sources of information for disbursement voucher numbers that can be used
           to reconcile the Fund Balance with Treasury general ledger account.




6
    Office of the Director of National Intelligence issued the “Financial Statement Auditability Plan Report to
    the Senate Select Committee on Intelligence,” on April 15, 2007



                                                       11
      b. In conjunction with the Defense Finance and Accounting Service
Denver, provide NGA accounting personnel with all available detail
information supporting the summary amounts reported on the Cash
Management Report for Air Force disbursing offices.

Management Comments. The Director, DFAS Indianapolis concurred with the
recommendation. He stated that DFAS Indianapolis will perform the
recommended actions to assist in the reconciliation of the NGA FBWT general
ledger account.

Audit Response. The Director, DFAS Indianapolis comments were fully
responsive to the recommendation.

3. We recommend that the Director, National Geospatial-Intelligence
Agency disclose in the footnotes to the financial statements any undistributed
amounts posted to the Fund Balance with Treasury general ledger account,
including the amounts that are unsupported.

Management Comments. The Director, NGA partially concurred with the
recommendation. He stated that NGA will disclose material undistributed
adjustments on its future financial statements. However, he stated that NGA is
unable to disclose the amount of its unsupported undistributed adjustments
because the detail reconciliations are performed after the undistributed amounts
are posted to the accounting records.

Audit Response. Although the Director, NGA agreed to disclose only material
adjustments affecting the FBWT general ledger account, we consider his
comments responsive to the intent of our recommendation. We agree that delays
in receiving all supporting documentation prevent NGA accounting personnel
from fully reconciling the FBWT general ledger account before they post the
undistributed disbursements to the general ledger. However, NGA must ensure
that the footnotes to the financial statements properly disclose that the
undistributed adjustment is not based completely on detailed reconciliations and
therefore is partially unsupported.




                                    12
Appendix A. Scope and Methodology
   We conducted this financial audit from December 2006 through October 2007 in
   accordance with generally accepted government auditing standards. Those
   standards require that we plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our finding and conclusions based on our audit
   objectives. Evidence was obtained through the following tasks:

          •   We reviewed DoD, U.S. Treasury, and NGA guidance related to the
              reconciliation of the Fund Balance with Treasury (FBWT) general
              ledger account.

          •   We obtained a universe of 2,353 funding transactions. Total funding
              for NGA is classified. We judgmentally selected for review a total
              sample of 21 transactions. We obtained and reviewed the supporting
              documentation for the 21 transactions selected for review.

          •   We also obtained the FBWT reconciliation worksheets prepared by
              NGA accounting personnel to reconcile the FY 2006 Operation and
              Maintenance; Procurement, Defense-Wide; and Research,
              Development, Test, and Evaluation appropriations. Limiting our
              review to the FY 2006 appropriations allowed us to observe and assess
              the current reconciliation procedures without the effect of past
              reconciliation practices.

          •   We selected a judgmental sample of 27 reconciliation worksheets
              prepared by NGA accounting personnel from July 2006 through
              March 2007. We obtained all applicable supporting documentation for
              the worksheets, including: the Cash Management Report; Detail Pile
              Report; in-transit listings; DD 1176, Reports on Budget Execution;
              and select transaction histories from the NGA accounting records. We
              identified minor typographical errors made by NGA accounting
              personnel when transferring disbursement voucher numbers and dollar
              amounts to the FBWT reconciliation worksheets. NGA accounting
              personnel corrected the identified errors and provided copies of the
              revised worksheets. Judgmental sampling cannot be statistically
              projected to the universe.

          •   We interviewed NGA accounting personnel to gain an understanding
              of the FBWT reconciliation process. We met with accounting
              personnel at DFAS Indianapolis to discuss the procedures used to
              generate the Cash Management Report. Finally, we traveled to DFAS
              Omaha to learn how disbursement and collection transactions are
              entered into the NGA accounting records.

          •   We developed a set of standardized review sheets that allowed us to
              determine whether amounts on the NGA FBWT reconciliation
              worksheets were properly supported and accurately entered into the


                                      13
               accounting records. We also used the standardized review sheets to
               confirm that NGA accounting personnel properly carried amounts on
               the FBWT reconciliation worksheet forward to the monthly
               undistributed journal vouchers that they posted to the FBWT general
               ledger account.

    Use of Computer-Processed Data. We obtained information on NGA
    disbursement and collection transactions recorded in the NGA accounting records
    maintained in its General Accounting and Finance System. We did not confirm
    the reliability of the computer-processed data, because the FY 2006 DoD
    Performance and Accountability Report described the lack of reliable, accurate,
    and timely financial information as a material management control deficiency.
    The lack of reliable information did not adversely affect our analysis.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage on one aspect of the financial management high-risk area.


Prior Coverage
    During the last 5 years, the Department of Defense Inspector General (DoD IG)
    has issued four reports discussing controls related to FBWT. All of these reports
    are classified SECRET. Unrestricted DoD IG reports can be accessed at
    http://www.dodig.mil/audit/reports.

    DoD IG Report No. D-2006-057, “Corrective Actions for Previously Identified
    Deficiencies Related to the National Geospatial-Intelligence Agency Financial
    Statements (U),” February 28, 2006.

    DoD IG Report No. D-2005-056, “Reliability of the FY 2004 Financial
    Statements for the National Geospatial-Intelligence Agency (U),” April 29, 2005.
    DoD IG Report No. D-2004-075, “Reliability of the FY 2003 Financial
    Statements for the National Geospatial-Intelligence Agency (U),” April 23, 2004.

    DoD IG Report No. D-2003-073, “Reliability of the FY 2002 National Imagery
    and Mapping Agency Financial Statements and Adequacy of Related Procedures
    and Controls (U),” April 2, 2003.




                                        14
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation
Under Secretary of Defense for Intelligence
Assistant to the Secretary of Defense for Intelligence Oversight

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Force Command

Other Defense Organizations
Director, National Geospatial-Intelligence Agency
   Inspector General, National Geospatial-Intelligence Agency
Director, National Security Agency
Director, Defense Intelligence Agency
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Denver
   Director, Defense Finance and Accounting Service Indianapolis
   Director, Defense Finance and Accounting Service Omaha

Non-Defense Federal Organizations
Office of the Director of National Intelligence
Office of Management and Budget




                                            15
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
Senate Select Committee on Intelligence
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform
House Permanent Select Committee on Intelligence




                                      16
National Geospatial-Intelligence Agency
Comments




                       17
18
19
Defense Finance and Accounting Service
Comments




                      20
21
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service, prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Patricia A. Marsh
Marvin L. Peek
Jennifer R. Siwula
Robin R. Mallard
Rodelito G. Homoroc
Demetris L. Kelly
Brandon A. Burton
Ellen Kleiman-Redden
